                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: I07050015                                                        11          Page 1 of 1



     A complainant1 alleged that an NSF PI^ at an institution3: 1) double-billed NSF and other funding
     sources for travel expenses; 2) purchased equipment (computers and digital cameras) for his
     children's use and his personal use; and 3) traveled with his office administrator and charged her
     expenses to the NSF grant(s).

     The complainant stated helshe previously raised these allegations with the institution, so we
     inquired about the institution's actions with regard to these allegations. The institution reviewed
     the PI'S past and present, federal and non-federal research activity and found no evidence of
     malfeasance by the PI; however, it identified $3 1,521 of questioned costs, as well as areas for
     improvement for the PI and the grant administrators in hisher Department.

     As a result, the institution returned $3 1,521 to NSF. Also, the PI and the grant administrators in
     hisher Department received training on federal regulations and institution policies.

     Accordingly, this case is closed.
